No. 21-5592

 

IN THE

Supreme Court of the United States

JOHN RAMIREZ,
Petitioner,

v.
BRYAN COLLIER, Executive Director,
Texas Department of Criminal Justice;
Bossy LUMPKIN, Director, TDJC, Correctional
Institutions Division; DENNIS CROWLEY, Warden,
TDCJ, Huntsville, TX,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF AS AMICI CURIAE OF THE UNITED
STATES CONFERENCE OF CATHOLIC
BISHOPS AND THE TEXAS CATHOLIC

CONFERENCE OF BISHOPS
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,727 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2021.

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
